  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


                Special Report:
            Letter on TSA’s FY 2005
             Financial Statements




               Office of Audits

OIG-06-48                             July 2006
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              July 7, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

This special report presents a letter on TSA’s FY 2005 financial statements prepared by the
independent public accounting firm KPMG LLP (KPMG). We engaged KPMG to audit TSA’s
FY 2005 financial statements. This special report marks a significant departure from TSA’s past
performance in preparing auditable financial statements. For FY 2005, KPMG did not complete
their audit because TSA did not provide KPMG with final financial statements on which KPMG
could report.

However, during the period of their engagement, KPMG noted certain matters involving internal
control and other operational matters that are included in the attached letter. Other matters may have
been identified had KPMG been able to perform all procedures necessary to express an opinion on
the TSA FY 2005 financial statements. KPMG is responsible for the attached letter dated March 14,
2006. We do not express an opinion on TSA’s financial statements or conclusions on internal
control or compliance with laws and regulations.

Of the matters identified by KPMG in the attached letter, our office recommends that TSA give
prioritized attention to the following: accounting treatment of fees; financial reporting; financial
systems security; grants monitoring and year-end accounting; undelivered orders, contract file
maintenance, and letters of intent accrual; and obligation recoveries.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report with KPMG’s attached letter will result in more
effective, efficient, and economical operations. We express our appreciation to all of those who
contributed to the preparation of this special report.



                                              Richard L. Skinner
                                              Inspector General
Management Comments
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary, Management
Assistant Secretary, Policy
Assistant Secretary, Public Affairs
Assistant Secretary, Legislative and Intergovernmental Affairs
Chief Financial Officer
Chief Information Officer
DHS GAO/OIG Audit Liaison

Transportation Security Administration

Assistant Secretary, Transportation Security Administration
Chief Financial Officer
Chief Information Officer
OIG Liaison

U.S. Coast Guard

Commandant
Chief Financial Officer
Chief Information Officer
OIG Liaison
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
